                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


                FEDERAL INFORMATION SECURITY
                   MANAGEMENT ACT AUDIT
                            FY 2013

                                           Report No. 4A-CI-00-13-021


                                           Date:                November 21, 2013




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                               -------------------------------------------------------------

                                     FEDERAL INFORMATION SECURITY
                                        MANAGEMENT ACT AUDIT
                                                     FY 2013
                                          --------------------------------
                                            WASHINGTON, D.C.




                                           Report No. 4A-CI-00-13-021


                                           Date:               November 21, 2013




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits

                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                   Executive Summary

                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                      -------------------------------------------------------------

                          FEDERAL INFORMATION SECURITY
                             MANAGEMENT ACT AUDIT
                                          FY 2013
                               --------------------------------
                                 WASHINGTON, D.C.




                               Report No. 4A-CI-00-13-021


                               Date:            November 21, 2013



This final audit report documents the Office of Personnel Management’s (OPM) continued
efforts to manage and secure its information resources.

Over the past several years, the Office of the Chief Information Officer (OCIO) made
noteworthy improvements to OPM’s IT security program. However, we are concerned that these
efforts have recently stalled due to resource limitations.

In the FY 2007 FISMA report, we noted a material weakness related to the lack of IT security
policies and procedures. In FY 2009, we expanded the material weakness to include the lack of
a centralized security management structure necessary to implement and enforce IT security
policies.

Little progress was made in the subsequent years to address these issues. However, in FY 2012,
the OPM Director issued a memo mandating the centralization of IT security duties to a team of
Information System Security Officers (ISSO) that report to the OCIO. This change was a major
milestone in addressing the material weakness.



                                                   i
However, as of the end of FY 2013, the centralized ISSO structure has only been partially
implemented. The OCIO had filled three ISSO positions and assigned security responsibility for
17 of the agency’s 47 information systems to these individuals. The OCIO has a plan to hire
enough ISSOs to manage the security of all 47 systems, but this plan continues to be hindered by
budget restrictions.

We acknowledge that the existing ISSOs are effectively performing security work for the limited
number of systems they manage, but there are still many OPM systems that have not been
assigned to an ISSO. The findings in this audit report highlight the fact that OPM’s
decentralized governance structure continues to result in many instances of non-compliance with
FISMA requirements. Therefore, we are again reporting this issue as a material weakness for FY
2013.

In addition to the issues described above, we noted the following controls in place and
opportunities for improvement:
•   The Security Assessment and Authorization packages completed in FY 2013 appeared to be
    an improvement over Authorizations completed in prior years, and the packages present a
    more uniform approach to IT security.
•   The OCIO has implemented risk management procedures at a system-specific level, but has
    not developed an agency-wide risk management methodology.
•   The OCIO has implemented an agency-wide information system configuration management
    policy and has established configuration baselines for all operating platforms used by the
    agency, with the exception of                             . In addition,
              are not routinely scanned for compliance with configuration baselines.
•   The OCIO routinely conducts vulnerability scans of production servers, and has improved its
    capability to track outstanding vulnerabilities. However, the OCIO has not documented
    accepted weaknesses for servers or databases.
•   The OCIO has implemented a process to apply operating system patches on all devices
    within OPM’s network on a weekly basis.
•   The OCIO has developed thorough incident response capabilities, but does not have a
    centralized network security operations center to continuously monitor security events.
•   Our review of Plans of Action and Milestones (POA&M) indicated that many system owners
    are not meeting the self-imposed remediation deadlines listed on the POA&Ms. In addition
    we noted that the owners of 10 systems have not identified the resources needed to address
    POA&M weaknesses, as required by OPM’s POA&M policy.
•   The OCIO enforces the use of two-factor authentication for remote access, but Virtual
    Private Network sessions do not                                       , as required by
    OPM’s Information Technology Security FISMA Procedures.
•   OPM is not compliant with Office of Management and Budget Memorandum M-11-11, as no
    OPM systems require two-factor authentication using PIV credentials.
•   The OCIO has developed the ability to detect unauthorized devices connected to the OPM
    network.


                                                ii
•   The OCIO has taken steps toward implementing a continuous monitoring program at OPM;
    however, this project remains a work in progress.
•   The IT security controls were adequately tested for only 34 of 47 information systems in
    OPM’s inventory.
•   The contingency plans were adequately tested for only 40 of 47 information systems in
    OPM’s inventory.
•   There is not a coordinated contingency plan/disaster recovery test between OPM’s various
    general support systems.
•   OPM maintains an adequate security capital planning and investment program for
    information security.
•   OPM is continuing its efforts to reduce the unnecessary use of Social Security Numbers.




                                               iii
                                                                 Contents
                                                                                                                                               Page


Executive Summary ......................................................................................................................... i
Introduction ..................................................................................................................................... 1
Background ..................................................................................................................................... 1
Objectives ....................................................................................................................................... 1
Scope and Methodology ................................................................................................................. 2
Compliance with Laws and Regulations......................................................................................... 4
Results ............................................................................................................................................. 5
    I.        Information Security Governance .................................................................................... 5
    II.       Security Assessment and Authorization .......................................................................... 7
    III.      Risk Management ............................................................................................................ 8
    IV.       Configuration Management ............................................................................................. 9
    V.        Incident Response and Reporting .................................................................................. 12
    VI.       Security Training ........................................................................................................... 13
    VII. Plan of Action and Milestones ....................................................................................... 14
    VIII. Remote Access Management ......................................................................................... 16
    IX.       Identity and Access Management .................................................................................. 17
    X.        Continuous Monitoring Management ............................................................................ 18
    XI.       Contingency Planning .................................................................................................... 20
    XII. Contractor Systems ........................................................................................................ 22
    XIII. Security Capital Planning .............................................................................................. 23
    XIV. Follow-up of Prior OIG Audit Recommendations......................................................... 23
Major Contributors to this Report ................................................................................................. 25

Appendix I: Status of Prior OIG Audit Recommendations
Appendix II: The Office of the Chief Information Officer’s October 16, 2013 comments on the
              draft audit report, issued September 25, 2013.
Appendix III: FY 2013 Inspector General FISMA reporting metrics.
                                        Introduction
On December 17, 2002, the President signed into law the E-Government Act (Public Law 107-
347), which includes Title III, the Federal Information Security Management Act (FISMA).
FISMA requires (1) annual agency program reviews, (2) annual Inspector General (IG)
evaluations, (3) agency reporting to the Office of Management and Budget (OMB) the results of
IG evaluations for unclassified systems, and (4) an annual OMB report to Congress summarizing
the material received from agencies. In accordance with FISMA, we conducted an evaluation of
OPM’s security program and practices. As part of our evaluation, we reviewed OPM’s FISMA
compliance strategy and documented the status of its compliance efforts.

                                        Background
FISMA requirements pertain to all information systems supporting the operations and assets of
an agency, including those systems currently in place or planned. The requirements also pertain
to information technology (IT) resources owned and/or operated by a contractor supporting
agency systems.

FISMA reemphasizes the Chief Information Officer’s strategic, agency-wide security
responsibility. At OPM, security responsibility is assigned to the agency’s Office of the Chief
Information Officer (OCIO). FISMA also clearly places responsibility on each agency program
office to develop, implement, and maintain a security program that assesses risk and provides
adequate security for the operations and assets of programs and systems under its control.

To assist agencies and IGs in fulfilling their FISMA evaluation and reporting responsibilities, the
Department of Homeland Security (DHS) Office of Cybersecurity and Communication issued
the Fiscal Year (FY) 2013 Inspector General FISMA Reporting Instructions. This document
provides a consistent form and format for agencies to report FISMA audit results to DHS. It
identifies a series of reporting topics that relate to specific agency responsibilities outlined in
FISMA. Our audit and reporting strategies were designed in accordance with the above DHS
guidance.

                                          Objectives
Our overall objective was to evaluate OPM’s security program and practices, as required by
FISMA. Specifically, we reviewed the status of the following areas of OPM’s IT security
program in accordance with DHS’s FISMA IG reporting requirements:
•   Risk Management;
•   Configuration Management;
•   Incident Response and Reporting Program;
•   Security Training Program;
•   Plans of Action and Milestones (POA&M) Program;
•   Remote Access Program;
•   Identity and Access Management;
•   Continuous Monitoring Program;


                                                 1
•   Contingency Planning Program;
•   Agency Program to Oversee Contractor Systems; and
•   Agency Security Capital Planning Program.

In addition, we evaluated the status of OPM’s IT security governance structure, an area that has
represented a material weakness in OPM’s IT security program in prior FISMA audits.

We also audited the security controls of three major applications/systems at OPM (see Scope and
Methodology for details of these audits), and audited the OCIO’s use of a Common Security
Controls Catalog. We also followed-up on outstanding recommendations from prior FISMA
audits (see Appendix I).

                               Scope and Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. The audit covered OPM’s
FISMA compliance efforts throughout FY 2013.

We reviewed OPM’s general FISMA compliance efforts in the specific areas defined in DHS’s
guidance and the corresponding reporting instructions. We also performed information security
audits on:
•   USA Staffing (Report No. 4A-HR-00-13-024, issued June 21, 2013);
•   Personnel Investigations Processing System (Report No. 4A-IS-00-13-022, issued June 24,
    2013);
•   Serena Business Manager (Report No. 4A-CI-00-13-023, issued July 19, 2013); and
•   Common Security Controls Catalog (report No. 4A-CI-00-13-036, issued October 10, 2013).

We considered the internal control structure for various OPM systems in planning our audit
procedures. These procedures were mainly substantive in nature, although we did gain an
understanding of management procedures and controls to the extent necessary to achieve our
audit objectives. Accordingly, we obtained an understanding of the internal controls for these
various systems through interviews and observations, as well as inspection of various documents,
including information technology and other related organizational policies and procedures. This
understanding of these systems’ internal controls was used to evaluate the degree to which the
appropriate internal controls were designed and implemented. As appropriate, we conducted
compliance tests using judgmental sampling to determine the extent to which established
controls and procedures are functioning as required.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
OPM. Due to time constraints, we did not verify the reliability of the data generated by the
various information systems involved. However, we believe that the data was sufficient to




                                                2
achieve the audit objectives, and nothing came to our attention during our audit testing to cause
us to doubt its reliability.

Since our audit would not necessarily disclose all significant matters in the internal control
structure, we do not express an opinion on the set of internal controls for these various systems
taken as a whole.

The criteria used in conducting this audit include:
•   DHS Office of Cybersecurity and Communications FY 2013 Inspector General Federal
    Information Security Management Act Reporting Instructions;
•   OPM Information Technology Security and Privacy Handbook;
•   OPM Information Technology Security FISMA Procedures;
•   OPM Security Assessment and Authorization Guide;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information
    Resources;
•   OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information;
•   OMB Memorandum M-11-11: Continued Implementation of Homeland Security Presidential
    Directive 12;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   National Institute of Standards and Technology (NIST) Special Publication (SP) 800-12, An
    Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30 Revision 1, Guide for Conducting Risk Assessments;
•   NIST SP 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems;
•   NIST SP 800-37 Revision 1, Guide for Applying the Risk Management Framework to
    Federal Information Systems;
•   NIST SP 800-39, Managing Information Security Risk;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60, Guide for Mapping Types of Information and Information Systems to
    Security Categories;
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;
•   Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems;
•   FIPS Publication 140-2, Security Requirements for Cryptographic Modules; and
•   Other criteria as appropriate.

The audit was performed by the OIG at OPM, as established by the Inspector General Act of
1978, as amended. Our audit was conducted from May through September 2013 in OPM’s
Washington, D.C. office.



                                                 3
                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OPM’s practices were
consistent with applicable standards. While generally compliant, with respect to the items tested,
OPM’s OCIO and other program offices were not in complete compliance with all standards, as
described in the “Results” section of this report.




                                                4
                                          Results
The sections below detail the results of our FY 2013 FISMA audit of OPM’s IT Security
Program. Many recommendations were issued in prior FISMA audits and are rolled forward
from the 2012 FISMA audit (Report No. 4A-CI-00-12-016).

I.    Information Security Governance
      Information security governance is the overall framework and supporting management
      structure and processes that are the foundation of a successful information security
      program. For many years, we have reported increasing concerns about the state of
      OPM’s information security governance. In the FY 2007 FISMA report, we issued a
      material weakness related to the lack of IT policies and procedures. In FY 2009, we
      expanded the material weakness to include the lack of a centralized security management
      structure necessary to implement and enforce IT policies.

      We also have growing concerns about OPM’s ability to manage major system
      development projects and the decentralized nature of the agency’s technical operating
      environment.

      The sections below provide additional details from the OIG’s review of IT security
      governance at OPM.

      a) Information security management structure

          Information system security at OPM has historically been managed by individual
          Designated Security Officers (DSO) that report to the various program offices that
          own major computer systems. Many of these DSOs are not certified IT security
          professionals, and are performing DSO duties as collateral responsibility to another
          full-time position.

          In FY 2011, the OCIO updated its IT security and privacy policies, but information
          security was still managed by DSOs that were not qualified to implement the new
          policies. In FY 2012, the OPM Director issued a memo mandating the transfer of IT
          security duties from the decentralized program office DSOs to a centralized team of
          Information System Security Officers (ISSO) that report to the OCIO. This change
          was a major milestone in addressing the material weakness.

          However, as of the end of FY 2013, the centralized ISSO structure has only been
          partially implemented. The OCIO has filled three ISSO positions and assigned
          security responsibility for 17 of the agency’s 47 information systems to these
          individuals. The OCIO has a plan to hire enough ISSOs to manage the security of all
          47 systems, but this plan continues to be hindered by budget restrictions.

          The existing ISSOs are effectively performing security work for the limited number
          of systems they manage, but there are still many OPM systems that have not been


                                               5
   assigned to an ISSO. The findings in this audit report highlight the fact that OPM’s
   decentralized governance structure continues to result in many instances of non-
   compliance with FISMA requirements. Specifically, the sections below related to
   continuous monitoring, contingency planning, and POA&Ms all describe specific
   weaknesses that could be improved with the full implementation of a centralized
   security governance structure. Therefore, we are again classifying this issue as a
   material weakness for FY 2013.

   Recommendation 1 (Rolled-Forward from 2010)
   We recommend that OPM implement a centralized information security governance
   structure where all information security practitioners, including designated security
   officers, report to the Chief Information Security Officer (CISO.) Adequate resources
   should be assigned to the OCIO to create this structure. Existing designated security
   officers who report to their program offices should return to their program office
   duties. The new staff that reports to the CISO should consist of experienced
   information security professionals.

   OCIO Response:
   “A CIO initiated Memo directing the centralization of the security responsibilities
   of Designated Security Officers (DSO) in the Office of Chief Information Security
   Officer (CISO) was issued by the OPM Director on August, 2012 with an effective
   date of October 1, 2012. The CIO has already hired three Information System
   Security Officers with professional IT security experience and certifications and
   recruitment of an additional one is in progress for a total of four. The initial set of
   systems has been transitioned to ISSOs for security management and we expect to
   have all OPM systems under CISO security management once funding for
   additional professional security staff becomes available.”

   OIG Reply:
   We acknowledge the progress that the OCIO has made in implementing a centralized
   IT security structure, and will continue to monitor its effectiveness in FY 2014.

b) Systems development lifecycle methodology

   OPM has a history of troubled system development projects. In our opinion, the root
   cause of these issues relates to the lack of central policy and oversight of systems
   development. Many system development projects at OPM have been initiated and
   managed by program offices with limited oversight or interaction with the OCIO.
   These program office managers do not always have the appropriate background in
   project management or information technology systems development.

   The OCIO has recently published a new system development lifecycle (SDLC)
   policy, which is a significant first step in implementing a centralized SDLC
   methodology at OPM. However, policy alone will not improve the historically weak
   SDLC management capabilities of OPM.


                                        6
         The new policy is currently only applicable to OPM’s 11 major IT investments and is
         not actively enforced on other IT projects. However, it is imperative that the OCIO
         make it a priority to enforce this new policy to all system development projects. The
         failure of OPM’s Service Credit system was an example of a system development
         project that did not meet the criteria of a major investment, but when it failed there
         were serious consequences for the agency – not financial, but impactful to
         stakeholders and embarrassing in terms of media exposure and political scrutiny.

         The new SDLC policy does incorporate several prior OIG recommendations related
         to a centralized review process of system development projects. We also
         recommended that the OCIO develop a team with the proper project management and
         system development expertise to oversee new system development projects. Through
         this avenue, the OCIO should review SDLC projects at predefined checkpoints, and
         provide strict guidance to ensure that program office management is following
         OPM’s SDLC policy and is employing proper project management techniques to
         ensure a successful outcome for all new system development projects.

         Recommendation 2
         We recommend that the OCIO develop a plan and timeline to enforce the new SDLC
         policy to all of OPM’s system development projects.

         OCIO Response:
         “The OPM SDLC is being applied to OPM’s major investment projects. In FY14, a
         plan with timelines will be developed to enforce the SDLC policy for applicable
         system development projects.”

         OIG Reply:
         We acknowledge the steps that the OCIO is taking to expand the enforcement of the
         SDLC policy, and reiterate that we believe the policy should be enforced to all OPM
         IT projects.

         As part of the audit resolution process, we recommend that the OCIO provide OPM’s
         Internal Oversight and Compliance Office with evidence that it has implemented the
         audit recommendation. This statement applies to all subsequent recommendations in
         this report where the OCIO agrees with the recommendation and intends to
         implement a solution.

II.   Security Assessment and Authorization
      System certification is a comprehensive assessment that attests that a system’s security
      controls are meeting the security requirements of that system, and accreditation is the
      official management decision to authorize operation of an information system and accept
      its risks. OPM’s process of certifying a system’s security controls is referred to as
      Security Assessment and Authorization (Authorization.)




                                              7
       In FY 2011, the OCIO published updated procedures and templates designed to improve
       the overall Authorization process and dedicated resources to facilitating system
       Authorizations. The new process resulted in a noticeable improvement in the agency’s
       Security Authorization packages and in FY 2012, we observed a continued improvement
       in the Authorization packages completed under this new process. This improvement has
       continued through FY 2013, and we believe this is due to the more rigorous review
       process through which the OCIO is requiring program offices to comply with policies,
       procedures, and the use of templates.

       We reviewed the full Authorization packages of 15 systems that were subject to an
       Authorization during FY 2013. The quality of all packages appeared to be an
       improvement over Authorizations completed in prior years, and the packages present a
       more uniform approach to IT security.

III.   Risk Management
       NIST SP 800-37 Revision 1 “Guide for Applying the Risk Management Framework to
       Federal Information Systems” provides federal agencies with a framework for
       implementing an agency-wide risk management methodology. The Guide suggests that
       risk be assessed in relation to the agency’s goals and mission from a three-tiered
       approach: Tier 1: Organization (Governance); Tier 2: Mission/Business Process
       (Information and Information Flows); and Tier 3: Information System (Environment of
       Operation). NIST SP 800-39 “Managing Information Security Risk – Organization,
       Mission, and Information System View” provides additional details of this three-tiered
       approach.

       a) Agency-wide risk management

          NIST SP 800-39 states that agencies should establish and implement “Governance
          structures [that] provide oversight for the risk management activities conducted by
          organizations and include:
          (i) the establishment and implementation of a risk executive (function);
          (ii) the establishment of the organization’s risk management strategy including the
                determination of risk tolerance; and
          (iii) the development and execution of organization-wide investment strategies for
                information resources and information security.”

          In FY 2011, the OCIO organized a Risk Executive Function comprised of several IT
          security professionals. However, as of the end of FY 2012, the 12 primary elements
          of the Risk Executive Function as described in NIST SP 800-39 were not all fully
          implemented. Key elements still missing from OPM’s approach to managing risk at
          an agency-wide level include: conducting a risk assessment, maintaining a risk
          registry, and communicating the agency-wide risks down to the system owners.
          Although the OCIO improved in assessing risk at the individual system level (see
          Security Assessment and Authorization section II, above), the OCIO was not fully
          managing risk at an organization-wide level.


                                               8
         As of FY 2013, no further changes have been implemented to address organization-
         wide risk.

         Recommendation 3 (Rolled Forward from 2011)
         We recommend that the OCIO continue to develop its Risk Executive Function to
         meet all of the intended requirements outlined in NIST SP 800-39, section 2.3.2 Risk
         Executive (Function).

         OCIO Response:
         “We will continue to assess the Risk Executive Function per NIST Special
         Publication 800-39 and to explore and make suggestions for implementing this
         function. The risk executive function will have agency wide authority and
         responsibility for assessing risk across all OPM Program Offices and to advise
         senior management on risk management strategies.”

      b) System specific risk management and annual security controls testing

         NIST SP 800-37 Revision 1 outlines a risk management framework (RMF) that
         contains six primary steps, including “(i) the categorization of information and
         information systems; (ii) the selection of security controls; (iii) the implementation of
         security controls; (iv) the assessment of security control effectiveness; (v) the
         authorization of the information system; and (vi) the ongoing monitoring of security
         controls and the security state of the information system.”

         The OCIO has implemented the six step RMF into its system-specific risk
         management activities through the new Authorization process. In addition, OPM
         policy requires each major information system to be subject to routine security
         controls testing.

IV.   Configuration Management
      The sections below detail the controls that the OCIO has in place to manage the technical
      configuration of OPM servers and workstations.

      a) Agency-wide security configuration policy

         OPM’s Information Security and Privacy Policy Handbook contains policies and
         procedures related to agency-wide configuration management. The handbook
         requires the establishment of secure baseline configurations and the monitoring and
         documenting of all configuration changes.

      b) Configuration baselines

         In FY 2013, OPM put forth significant effort to document and implement new
         baseline configurations for critical applications, servers, and workstations. At the



                                               9
   end of the fiscal year, the OCIO had established baselines and/or build sheets for the
   following operating systems:

   •   Windows Internet Explorer 8,
   •   Windows XP,
   •   Windows 7, and
   •   Windows 2008 R2.

   The OCIO is currently developing new baselines for                              .

   NIST SP 800-53 Revision 3 control CM-2 requires agencies to develop, document,
   and maintain a current baseline configuration of the information system. A baseline
   should serve as a formally approved standard outlining how to securely configure
   various operating platforms. Without an approved baseline, there is no standard
   against which actual configuration settings can be measured, increasing the risk that
   insecure systems exist in the operating environment.

   Recommendation 4
   We recommend that the OCIO develop and implement a baseline configuration for
                                     .

   OCIO Response:
   “We are working to standardize operating systems and applications throughout the
   environment. Over the past year, all Windows and Linux operating systems, as well
   as Microsoft SQL have been given approved baseline images. We will continue to
   improve our processes and develop and implement configuration baselines for
                                    .”

c) United States Government Computer Baseline Configuration

   OPM user workstations are built with a standard image that is compliant with the
   United States Government Baseline Configuration. Any deviations deemed necessary
   by the agency from the configurations are documented within each operating
   platform’s baseline configuration.

   We conducted an automated scan of the Windows 7 standard image to independently
   verify compliance with the appropriate guideline and OPM’s baseline. Nothing came
   to our attention to indicate that there are weaknesses in OPM’s methodology to
   securely configure user workstations.

d) Compliance with baselines

   The OCIO uses automated scanning tools to conduct routine compliance audits on the
   majority of operating platforms used in OPM’s server environment. These tools
   compare the actual configuration of servers and workstations to the approved baseline


                                       10
                  In FY 2013, the OCIO implemented a process to routinely scan ­
                              However these scans are not perf01med using an
                                                                       because, as mentioned above,
                                         ,._,.w,.... v ............., are in development.

   NIST SP 800-53 Revision 3 control CM-3 requires agencies to audit activities
   associated with infonnation system configurations.

   Recommendation 5
   We recommend that the OCIO conduct routine compliance audits on
                 with the OPM baseline configuration once they have
             approved.

   OC/0 Response:
   "We concur with this recommendation and will implement the recommendation on
   the approved baseline configuration. "

e) Software and hardware change management

   The OCIO has developed a Configuration Change Control Policy that outlines a
   f01mal process to approve and document all computer software and hardware
   changes. The OCIO utilizes a software application to manage and maintain all
   computer software and hardware change control documentation.

   We reviewed evidence indicating that the OCIO is adequately following this policy
   and is thoroughly documenting all system changes. Nothing came to our attention to
   indicate that there are weaknesses in OPM's change management process.

f) Vulnerability scanning

   OPM ' s Network Management Group (NMG) perfonns monthly vulnerability scans of
   all servers using automated scanning tools. A daily security advis01y rep01t is
   generated that details the m ost vulnerable servers and workstations, and these rep01ts
   ar e sent to system owners so they can remediate the identified weaknesses.

   NMG has documented accepted weaknesses for OPM user workstations; however, it
   has not fully documented weaknesses for servers or databases (i.e., vulnerability scan
   findings that are justified by a business need). This recommendation remains open
   from FY 2011 and is rolled f01ward in FY 2013.

   Recommendation 6 (Rolled Fonvard from 2011)
   We recommend that the OCIO document " accepted" weaknesses identified in
   vulnerability scans.




                                           11 

        OCIO Response:
        “We concur with this recommendation and will implement the recommendation in
        FY-14.”

     g) Patch management

        The OCIO has implemented a process to apply operating system patches on all
        devices within OPM’s network on a weekly basis. In FY 2013, the OCIO began
        utilizing a third party patching software management program to manage and
        maintain all non-operating system software.

        We conducted vulnerability scans on a sample of servers and determined that servers
        are appropriately patched. Nothing came to our attention to indicate that there are
        weaknesses in OPM’s patch management process.

V.   Incident Response and Reporting
     OPM’s “Incident Response and Reporting Guide” outlines the responsibilities of OPM’s
     Situation Room and documents procedures for reporting all IT security events to the
     appropriate entities. We evaluated the degree to which OPM is following internal
     procedures and FISMA requirements for reporting security incidents internally, to the
     United States Computer Emergency Readiness Team (US-CERT), and to appropriate law
     enforcement authorities.

     a) Identifying and reporting incidents internally

        OPM’s Incident Response and Reporting Guide requires any user of the agency’s IT
        resources to immediately notify OPM’s Situation Room when IT security incidents
        occur. OPM reiterates the information provided in the Incident Response and
        Reporting Guide in an annual mandatory IT security and privacy awareness training
        course. In addition, OPM also uses three different software tools to prevent and
        detect intrusions and malware in the agency’s network.

        The OCIO has processes in place to quickly respond to all reported security incidents.
        Our FY 2012 FISMA report indicated that there were several incidents in that fiscal
        year that were not appropriately reported to the Situation Room. In response, the
        OCIO provided documentation indicating that it had improved the annual incident
        response training. This training appears to have improved incident response
        reporting, as we are unaware of any incidents that were not appropriately reported in
        FY 2013.

     b) Reporting incidents to US-CERT and law enforcement

        OPM’s Incident Response and Reporting policy states that OPM's Situation Room is
        responsible for sending incident reports to US-CERT on security incidents. OPM
        notifies US-CERT within one hour of a reportable security incident occurrence.


                                            12
         The Incident Response and Reporting policy also states that security incidents should
         be reported to law enforcement authorities, where appropriate. The OIG’s Office of
         Investigations is part of the incident response notification distribution list, and is
         notified when security incidents occur.

      c) Correlating and monitoring security incidents

         OPM owns a software product with the technical ability to compare and correlate
         security incidents over time. However, the correlation features of these tools are not
         being fully utilized at this time. This tool receives event data from approximately 80
         percent of all major OPM systems. Furthermore, OPM does not have a consistent and
         unified process to monitor and analyze all security incidents. Some incidents cannot
         be fully investigated due to inconsistent logging practices across systems, and
         inefficiencies created by program offices running separate monitoring tools on their
         systems.

         The OCIO’s NMG is in the process of establishing an Enterprise Network Security
         Operations Center (ENSOC) that will provide continuous centralized support for
         OPM’s security incident prevention/management, performance analysis, fault
         resolution, maintenance coordination, configuration management, security
         management, system monitoring, network monitoring, alert escalation, problem
         resolution bridge coordination, and incident response. Although we agree that the
         proposed ENSOC will greatly improve OPM’s incident management capabilities and
         overall security of the agency, the OCIO continues to face resource limitations that
         hinder the full implementation of the ENSOC.

         Recommendation 7 (Rolled Forward from 2012)
         We recommend that the OCIO establish a centralized network security operations
         center with the ability to monitor security events for all major OPM systems.

         OCIO Response:
         “A centralized monitoring center is established with first level alerting and
         monitoring for the servers, and network appliances within the major OPM sites.
         Work has begun on incorporating application and database monitoring and
         compliance. We will continue to evaluate and look at cost effective ways to
         implement this recommendation.”

VI.   Security Training
      FISMA requires all government employees and contractors to take IT security awareness
      training on an annual basis. In addition, employees with IT security responsibility are
      required to take additional specialized training.




                                             13
     a) IT security awareness training

        The OCIO provides annual IT security and privacy awareness training to all OPM
        employees through an interactive web-based course. The course introduces
        employees and contractors to the basic concepts of IT security and privacy, including
        topics such as the importance of information security, security threats and
        vulnerabilities, viruses and malicious code, privacy training, peer-to-peer software,
        and the roles and responsibilities of users.

        Over 98 percent of OPM’s employees and over 99 percent of contractors completed
        the security awareness training course in FY 2013.

     b) Specialized IT security training

        OPM employees with significant information security responsibilities are required to
        take specialized security training in addition to the annual awareness training.

        The OCIO has developed a table outlining the security training requirements for
        specific job roles. The OCIO uses a spreadsheet to track the security training taken
        by employees that have been identified as having security responsibility. Of
        employees with significant security responsibilities, 96 percent completed specialized
        IT security training in FY 2013.

VII. Plan of Action and Milestones
     A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
     monitoring the progress of corrective efforts for IT security weaknesses. The sections
     below detail OPM’s effectiveness in using POA&Ms to track the agency’s security
     weaknesses.

     a) POA&Ms incorporate all known IT security weaknesses

        The OIG FY 2012 FISMA audit contained 18 audit recommendations; we verified
        that all 18 recommendations were appropriately incorporated into the OCIO master
        POA&M.

        Although only 34 of OPM’s 47 major systems provided the OIG with annual security
        controls tests (see section X, below), we were able to verify that all security
        weaknesses identified during these tests were incorporated into the appropriate
        system’s POA&M.

     b) Prioritize Weaknesses

         Each program office at OPM is required to prioritize the security weaknesses on their
         POA&Ms to help ensure significant IT issues are addressed in a timely manner. We




                                            14
   verified the POA&Ms that were provided did identify and prioritize each security
   weakness.

c) Effective remediation plans and adherence to remediation deadlines

   All system owners are required to create action steps (milestones) to effectively
   remediate specific weaknesses identified on POA&Ms. Our review of the POA&Ms
   indicated that system owners are appropriately listing milestones and target
   completion dates on their POA&Ms.

   However, our review also indicated that many system owners are not meeting the
   self-imposed remediation deadlines listed on the POA&Ms. Of OPM’s 47 major
   systems, 22 have POA&M items that are greater than 120 days overdue. We issued
   an audit recommendation in FY 2012 related to overdue POA&M items. The
   recommendation was closed during this fiscal year because the OCIO provided
   updated corrective action plans for multiple systems. However, we are re-issuing the
   recommendation because overdue POA&M items now exist for nearly half of OPM
   systems.

   Recommendation 8
   We recommend that the OCIO and system owners develop formal corrective action
   plans to remediate all POA&M weaknesses that are over 120 days overdue.

   OCIO Response:
   “The CIO dedicated resources to this task and has successfully closed a majority of
   POA&Ms that are over 120 days old and will continue to work with program offices
   to reduce or close those that are outstanding and to develop formal Corrective
   Action Plans. Most POA&Ms that are over 120 days have dependencies such as
   funding that is not available or coordination issues with external entities who often
   are not ready to implement the required changes.”

   OIG Reply:
   We acknowledge that resource limitations will often impact the amount of time
   required to address a system weakness. However, the remediation deadlines on the
   POA&M’s are self-imposed and should be reasonable to meet. Additional training
   for systems owners on establishing appropriate POA&M deadlines may help resolve
   this issue.

d) Identifying resources to remediate weaknesses

   We noted that the owners of 10 systems have not identified the resources needed to
   address POA&M weaknesses, as required by OPM’s POA&M policy.




                                      15
        Recommendation 9 (Rolled Forward from 2012)
        We recommend that all POA&Ms list the specific resources required to address each
        security weakness identified.

        OCIO Response:
        “This recommendation has been largely implemented for program offices with
        open POA&Ms. We will continue to work with program offices to ensure that the
        ‘resources required’ for POA&Ms are identified and documented.”

     e) OCIO tracking and reviewing POA&M activities on a quarterly basis

         System owners are required to submit a POA&M to the OCIO on a quarterly basis.
         In addition, the OCIO requires program offices to provide the evidence, or “proof of
         closure,” that security weaknesses have been resolved before officially closing the
         related POA&M. When the OCIO receives a proof of closure document from the
         program offices for a POA&M item, an OCIO employee will judgmentally review
         the documentation to determine whether or not the evidence provided was
         appropriate.

         We selected one closed POA&M item from each of 10 OPM systems and reviewed
         the proof of closure documentation provided by the program offices. The 10 systems
         were judgmentally selected from the 47 OPM systems. We determined that adequate
         proof of closure was provided for all 10 systems tested. The results of the sample
         test were not projected to the entire population.

VIII. Remote Access Management
     OPM has implemented policies and procedures related to authorizing, monitoring, and
     controlling all methods of accessing the agency’s network resources from a remote
     location. In addition, OPM has issued agency-wide telecommuting policies and
     procedures, and all employees are required to sign a Rules of Behavior document that
     outlines their responsibility for the protection of sensitive information when working
     remotely.

     OPM utilizes a Virtual Private Network (VPN) client to facilitate secure remote access to
     the agency’s network environment. The OPM VPN requires the use of an individual’s
     PIV card and password authentication to uniquely identify users. The OIG has reviewed
     the VPN access list to ensure that there are no shared accounts and that each user account
     has been tied to an individual. The agency maintains logs of individuals who remotely
     access the network, and the logs are reviewed on a monthly basis for unusual activity or
     trends.

     Although there are still a small portion of authorized network devices that are not
     compliant with PIV cards (e.g., iPads), these devices still require multi-factor




                                             16
      authentication for remote access through the use of RSA tokens and password
      authentication .

                                                      recJuureiJaerlt that a remote access session
                                                                   We connected workstations to
                                                                  neither VPN session was
                                              1s m     process of conducting research on
                                 to mitigate this issue and believes this is a major flaw in the
      vendor's design.

      Recommendation 10 (Rolled Forward from 2012)
      We recommend the OCIO configure the VPN servers to


      OC/0 Response:
      "All technological controls are in place and we believe there is a flaw in a vendor's
      design that will require an out ofbandpatch to repair. We have na"owed the problem
      to a fault within the UDP connection to the client and we are working with the vendor,
      Cisco Systems to get this resolved. "

IX.   Identity and Access Management
      The following sections detail OPM's accmmt and identity m anagement program.

      a) Policies for account and identity management

         OPM m aintains policies and procedures for agency-wide account and identity
         management within the OCIO Infotmation Security and Privacy Policy Handbook.
         The policies contain procedures for creating user accounts with the appropriate level
         of access as well as procedures for removing access for tetminated employees.

      b) Terminated employees

         OPM maintains policies related to management of user accounts for its local area
         network (LAN) and its mainframe enviromnents. Both policies contain procedures
         for creating user accounts with the appropriate level of access as well as procedures
         for removing access for tetminated employees.

         We conducted an access test comparing the cunent LAN active user list against a list
         oftetminated employees from the past year. Nothing came to our attention to
         indicate that there are weaknesses in OPM 's access tetmination management process.




                                              17 

     c) Multi-factor authentication with PIV

        OMB Memorandum M-11-11 requires all federal information systems to be upgraded
        to use PIV credentials for multi-factor authentication by the beginning of FY 2012.
        In addition, the memorandum stated that all new systems under development must be
        PIV compliant prior to being made operational, and that agencies must be compliant
        with the memorandum prior to using technology refresh funds to complete other
        activities.

        In FY 2012, the OCIO began an initiative to require PIV authentication to access the
        agency’s network. As of the end of FY 2013, 30 percent of OPM workstations
        require PIV authentication for access to the OPM network. However, none of the
        agency’s 47 major applications require PIV authentication.

        Recommendation 11 (Rolled Forward from 2012)
        We recommend that the OCIO meet the requirements of OMB M-11-11 by upgrading
        its major information systems to require multi-factor authentication using PIV
        credentials.

        OCIO Response:
        “We have developed and are in the process of implementing plans for multi-factor
        PIV authentication for compliance with OMB M-11-11. A major segment of the
        users on our network infrastructure are using PIV authentication. In FY-14 we
        will continue to work with program offices to implement PIV authentication for
        major systems.”

     d) Unauthenticated network devices

        In prior FISMA audits, we have recommended that the OCIO implement an
        automated process to detect non-approved devices connected to OPM’s network. The
        OCIO has purchased a Network Access Controller (NAC) that will govern access to
        network resources. The NAC has the ability to identify all devices on the network
        and deny access to unauthenticated devices.

        Nothing came to our attention to indicate that there are weaknesses in OPM’s controls
        over unauthenticated devices.

X.   Continuous Monitoring Management
     The following sections detail OPM’s controls related to continuous monitoring of the
     security state of its information systems.




                                            18
a) Continuous monitoring policy and procedures

   OPM’s Information Security and Privacy Policy Handbook states that the security
   controls of all systems must be continuously monitored and assessed to ensure
   continued effectiveness. In FY 2012, the OCIO published an addendum to the
   Information Security and Privacy Policy which states that it is the ISSO/DSOs
   responsibility to assess all security controls in an information system. The addendum
   also states that continuous monitoring security reports must be provided to ITSP at least
   semiannually.

   As stated in section I above, the ISSO function has not been fully established at OPM.
   Our FY 2012 FISMA report stated that many of the current DSOs do not have the
   technical skills or the resources required to adequately monitor the information
   security controls of their systems. Therefore, we continue to believe that OPM’s
   continuous monitoring policies and procedures cannot be adequately implemented
   until the agency’s centralized ISSO function has been fully established.

b) Continuous monitoring strategy

   The OCIO developed a concept of operations document and a continuous monitoring
   program implementation “roadmap” that describes the stages and timeline for
   implementing a full continuous monitoring program at OPM. While the initial stages
   of implementation began in FY 2012, full implementation of the plan is not scheduled
   to be completed until FY 2015. The OCIO achieved the FY 2013 milestones outlined
   in the roadmap which included semiannual reporting for all OPM-operated systems.
   The next stage in the OCIO’s plan involves quarterly submissions for High impact
   systems, more frequent controls testing for all systems, and further implementation of
   automated tools. Implementation of this stage is scheduled to be completed during
   FY 2014.

   Recommendation 12
   We recommend that the OCIO expand its continuous monitoring program to include
   quarterly submissions for High impact systems, more frequent controls testing for all
   systems, and further implementation of automated tools as outlined in the Information
   Security Continuous Monitoring Roadmap.

   OCIO Response:
   “We have made significant progress implementing Continuous Monitoring at OPM
   and will continue to expand the program over a 2 year period into FY-15 subject to
   availability of funds. We plan to implement this specific set of recommendations
   from the draft report.”

c) Annual assessment of security controls

   OPM policy requires all OPM system owners to submit evidence of continuous
   monitoring activities at least semiannually (in March and September).


                                         19
         We requested the security test results for all OPM-operated systems for both
         submissions in order to review them for quality and consistency. However, we were
         only provided testing documentation for 20 out of the 26 major OPM-operated
         systems.

         At this time, security controls testing for contractor-operated systems is still only
         required annually. A review of contractor system security control testing (see section
         XII, below) indicates that only 14 out of 21 contractor-operated systems were tested
         in this fiscal year.

         Between contractor- and agency-operated information systems, only 34 out of 47
         systems were subject to adequate security controls testing in FY 2013.
         Failure to continuously monitor and assess security controls increases the risk that
         agency officials are unable to make informed judgments to appropriately mitigate
         risks to an acceptable level.

         It has been over six years since all OPM systems were subject to an adequate annual
         security controls test. OPM’s decentralized approach to IT security has traditionally
         placed responsibility on the various program offices to test the security controls of
         their systems. The OCIO’s lack of authority over these program offices has
         contributed to the inadequate security controls testing of the agency’s information
         systems. We are optimistic that the quality and consistency of security controls tests
         will improve with the full implementation of the OCIO’s centralized ISSO structure
         and with the shift to semi-annual continuous monitoring submissions.

         Recommendation 13 (Rolled Forward from 2008)
         We recommend that OPM ensure that an annual test of security controls has been
         completed for all systems.

         OCIO Response:
         “We continue to make progress with security controls testing in FY-2013 and
         expect to have test plans and results for all systems in FY-2014. Security controls
         testing will be a major part of our continuous monitoring program that is currently
         being implemented.”

XI.   Contingency Planning
      OPM’s Information Security Privacy and Policy Handbook requires a contingency plan
      to be in place for each information system and that each system’s contingency plan be
      tested on an annual basis. The sections below detail our review of contingency planning
      activity in FY 2013.




                                              20
a) Documenting contingency plans of individual OPM systems

   We verified that contingency plans exist for all 47 production systems on OPM’s
   master system inventory.

   In prior OIG FISMA audits, we noted that the quality and consistency of contingency
   plans varied greatly between OPM’s various systems. As a result, the OCIO
   developed a contingency plan template that all system owners are now required to
   use. The new template closely follows the guidance of NIST SP 800-34,
   Contingency Planning Guide for Federal Information Systems.

b) Testing contingency plans of individual OPM systems

   OPM’s Information Security Privacy and Policy Handbook requires that the
   contingency plan for each information system be tested at least annually using
   information system specific tests and exercises. We received evidence that
   contingency plans were tested for only 40 of 47 systems in FY 2013.

   Of the contingency plan tests we did receive, we continue to notice inconsistency in
   the quality of the documentation produced for various OPM systems. One of the
   main areas of inconsistency relates to the analysis or “lessons learned” section of the
   report. NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans
   and Capabilities, states that an after action report should “include background
   information about the exercise, documented observations made by the facilitator and
   data collector, and recommendations for enhancing the IT plan that was exercised.”

   Several after action reports we reviewed did not include summarized results or
   lessons learned. Without a thoroughly documented after action report, system owners
   will not know how to improve the contingency plan in order to be better prepared for
   a disruptive event.

   Recommendation 14 (Rolled Forward from 2008)
   We recommend that OPM’s program offices test the contingency plans for each
   system on an annual basis. The contingency plans should be tested for the systems
   that were not subject to adequate testing in FY 2013 as soon as possible.

   OCIO Response:
   “We will continue making progress working with program offices on contingency
   plan testing in FY-14. Due to the current shortage of funding for all ISSOs, the
   CISO must still rely on decentralized DSOs for support to complete the testing.
   This has caused delays in implementation and coordination.”

c) Testing contingency plans of OPM general support systems

   Many OPM systems reside on one of the agency’s general support systems. The
   OCIO typically conducts a full recovery test at the backup location of the Enterprise


                                       21
        Server Infrastructure general support system (i.e., the mainframe and associated
        systems) on an annual basis. However, no test was performed in FY 2013 due to
        planned major changes in OPM’s technical environment. OPM purchased a new
        mainframe and successfully failed-over all production data and applications from the
        old mainframe to the new one. However, the fail-over did not take place in the
        backup location.

        One of OPM’s other major general support system, the LAN/WAN general support
        system, is not routinely subject to a full functional disaster recovery test. Only select
        LAN/WAN systems that impact or interface with the mainframe environment are
        tested annually in conjunction with the mainframe disaster recovery test. Other
        critical applications such as the email server were successfully tested in FY 2013.

        NIST SP 800-53 Revision 3 states that FIPS 199 “high” systems should be subject to
        “a full recovery and reconstitution of the information system to a known state as part
        of contingency plan testing.” Without full functional routine testing of all OPM
        general support systems, there is a risk that OPM systems will not be successfully
        recovered in the event of a disaster.

        In the FY 2011 FISMA audit report we recommended that the OCIO implement a
        centralized (agency-wide) approach to contingency plan testing. We were informed
        that a single synchronized functional test is not feasible due to logistical and resource
        limitations. However, the intent of the recommendation is to ensure that all elements
        of the general support systems are subject to a full functional disaster recovery test
        each year. This recommendation can be remediated if each general support system is
        subject to a full functional test each year, even if it must be broken into a series of
        smaller tests.

        Recommendation 15 (Rolled Forward from 2011)
        We recommend that the OCIO implement and document a centralized (agency-wide)
        approach to contingency plan testing.

        OCIO Response:
        “We will continue efforts to centralize contingency plan testing in FY-14 with the
        goal of implementing this recommendation.”

XII. Contractor Systems
     We evaluated the methods that the OCIO and various program offices use to maintain
     oversight of their systems operated by contractors on behalf of OPM.

     1. Contractor system documentation

        OPM’s master system inventory indicates that 21 of the agency’s 47 major
        applications are operated by a contractor. The OCIO also maintains a separate



                                             22
        spreadsheet documenting interfaces between OPM and contractor-operated systems
        and the related Interconnection Security Agreements.

     2. Contractor system oversight

        The OPM Information Security and Privacy Policy Addendum states that “It is the
        responsibility of the OPM system owner to ensure systems or services hosted by non-
        OPM organizations comply with OPM information security and privacy policies.”
        The handbook addendum also states that “OPM System Owners must ensure that an
        annual security controls assessment is performed by a government employee or an
        independent third party at the site where contracted information technology services
        are rendered.”

        We requested the annual security control tests for contractor-operated systems in
        order to review them for quality and consistency. However, we were only provided
        testing documentation for 14 out of the 21 systems (see section X above for the
        related recommendation. Failure to complete the annual security controls test
        increases the risk that agency officials are unable to make informed judgments to
        appropriately mitigate risks to an acceptable level.

XIII. Security Capital Planning
     NIST SP 800-53 Revision 3, control SA-2, Allocation of Resources, states that an
     organization needs to determine, document, and allocate the resources required to protect
     information systems as part of its capital planning and investment control process.

     OPM’s Information Security and Privacy Policy Handbook contains policies and
     procedures to ensure that information security is addressed in the capital planning and
     investment process. The OCIO uses the Integrated Data Collection, a replacement to the
     Exhibit 53B, to record information security resources allocation and submits this
     information annually to OMB.

     Nothing came to our attention to indicate that OPM does not maintain an adequate capital
     planning and investment program for information security.

XIV. Follow-up of Prior OIG Audit Recommendations

     All open audit recommendations issued prior to 2012 were rolled forward into one of the
     recommendations in the FY 2012 OIG FISMA audit report (Report 4A-CI-00-12-016)
     FY 2012 recommendations that were not remediated by the end of FY 2013 are rolled
     forward with a new recommendation number in this FY 2013 OIG FISMA audit report.

     The prior sections of this report evaluate the current status of many 2012
     recommendations. However, there is one additional 2012 recommendation that has not
     yet been addressed in this report because the related topic was not part of the FY 2013
     FISMA reporting instructions. The current status of this recommendation is below.


                                            23
a) 4A-CI-00-12-016 Recommendation 16 (Rolled Forward from 2008)
   We recommend that OPM continue its efforts to eliminate the unnecessary use of
   SSNs in accordance with OMB Memorandum M-07-16.

   FY 2013 Status
   The OCIO has an ongoing plan to reduce and eventually eliminate the unnecessary
   use of SSNs in its major information systems. However, resource limitations
   prevented them from completing this task in FY 2013. This recommendation remains
   open and is rolled forward in FY 2013.

   Recommendation 16 (Rolled Forward from 2008)
   We recommend that OPM continue its efforts to eliminate the unnecessary use of
   SSNs in accordance with OMB Memorandum M-07-16.

   OCIO Response:
   “Significant work was done to eliminate the unnecessary use of social security
   numbers (SSN) including development of a consolidated Action Plan and
   eliminating them from USAJOBS and the PMF systems. In FY-14, the Privacy
   Officer will update the action plan and schedule a pilot project with Retirement
   Services to review business processes to determine how SSNs usage can be reduced.
   Note that this recommendation requires funding for agency-wide implementation.”




                                     24
                              Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•   Lewis F. Parker, Deputy Assistant Inspector General for Audits
•                    , Chief, Information Systems Audits Group
•                 Lead IT Auditor
•                       , IT Auditor
•                   , IT Auditor
•                           IT Auditor




                                              25
                                                                              Appendix I
                                                          Status of Prior OIG Audit Recommendations

The table below outlines the current status of prior audit recommendations issued in FY 2012 by the Office of the Inspector General.

Report No. 4A-CI-00-12-016: FY 2012 Federal Information Security Management Act Audit, issued November 5, 2012

 Rec #                      Original Recommendation                                        Recommendation History                     Current Status
         We recommend that OPM implement a centralized information security
         governance structure where all information security practitioners,
         including designated security officers, report to the CISO. Adequate
         resources should be assigned to the OCIO to create this structure.          Roll-forward from OIG Reports:
                                                                                                                              OPEN: Rolled-forward as Report
1        Existing designated security officers who report to their program offices   • 4A-CI-00-10-019 Recommendation 4 and   4A-CI-00-13-021 Recommendation 1
         should return to their program office duties. The new staff that reports    • 4A-CI-00-11-009 Recommendation 2
         to the CISO should consist of experienced information security
         professionals.

         We recommend that the OCIO continue to develop its Risk Executive
         Function to meet all of the intended requirements outlined in NIST SP       Roll-Forward from OIG Report:            OPEN: Rolled-forward as Report
2
         800-39, section 2.3.2 Risk Executive (Function).                            • 4A-CI-00-11-009 Recommendation 6       4A-CI-00-13-021Recommendation 3

         We recommend that the OCIO implement a process to routinely audit
                        for compliance with the approved OPM baseline                Recommendation new in FY 2012
3                                                                                                                             CLOSED: 6/20/2013
         configuration.

         We recommend that the OCIO document “accepted” weaknesses                   Roll-Forward from OIG Report:            OPEN: Rolled-forward as Report
4        identified in vulnerability scans.
                                                                                     • 4A-CI-00-11-009 Recommendation 9       4A-CI-00-13-021Recommendation 6
         We recommend that the OCIO implement a process to timely patch (or
                                                                                     Recommendation new in FY 2012
5        remove altogether) third party applications on its servers.                                                          CLOSED: 9/25/2013
     We recommend that the OCIO establish a centralized network security
     operations center with the ability to monitor security events for all                                                   OPEN: Rolled-forward as Report
6                                                                               Recommendation new in FY 2012
     major OPM systems.                                                                                                      4A-CI-00-13-021Recommendation 7

     We continue to recommend that the OCIO ensure that all employees           Roll-Forward from OIG Reports:
     with significant information security responsibility take meaningful and
7                                                                               • 4A-CI-00-10-019 Recommendation 16, and     CLOSED 9/26/2013
     appropriate specialized security training on an annual basis.              • 4A-CI-00-11-009 Recommendation 10
     We recommend that the OCIO and system owners develop formal
                                                                                                                             CLOSED: 2/26/2013
     corrective action plans to remediate all POA&M weaknesses that are
8                                                                               Recommendation new in FY 2012                Reissued as 4A-CI-00-13-
     over 120 days overdue.
                                                                                                                             021Recommendation 8
     We recommend that all POA&Ms list the specific resources required to
                                                                                                                             OPEN: Rolled-forward as Report
9    address each security weakness identified.                                 Recommendation new in FY 2012
                                                                                                                             4A-CI-00-13-021Recommendation 9
     We recommend the OCIO configure the VPN servers to terminate VPN
                                                                                                                             OPEN: Rolled-forward as Report
10   sessions after 30 minutes of inactivity.                                   Recommendation new in FY 2012
                                                                                                                             4A-CI-00-13-021Recommendation 10
     We recommend that the OCIO meet the requirements of OMB M-11-11
     by upgrading its major information systems to require multi-factor                                                      OPEN: Rolled-forward as Report
11                                                                              Recommendation new in FY 2012
     authentication using PIV credentials.                                                                                   4A-CI-00-13-021Recommendation 11

     We recommend that the OCIO implement an automated process to               Roll-Forward from OIG Reports:
12   detect unauthenticated network devices.                                    • 4A-CI-00-10-019 Recommendation 25, and     CLOSED: 9/25/2013
                                                                                • 4A-CI-00-11-009 Recommendation 16
     We recommend that the OCIO expand its continuous monitoring
     program to include a reporting process at the system‐level, and
13   implement automated tools and metric reporting for OPM as outlined in      Recommendation new in FY 2012                CLOSED: 9/25/2013
     the Information Security Continuous Monitoring Roadmap

                                                                                Roll-forward from OIG Reports:
     We recommend that OPM ensure that an annual test of security controls      •   4A-CI-00-08-022 Recommendation 1,
                                                                                                                             OPEN: Rolled-forward as Report
14   has been completed for all systems.                                        •   4A-CI-00-09-031 Recommendation 6,
                                                                                                                             4A-CI-00-13-021Recommendation 13
                                                                                •   4A-CI-00-10-019 Recommendation 10, and
                                                                                •   4A-CI-00-11-009 Recommendation 11
15   We recommend that OPM’s program offices test the contingency plans         Roll-forward from OIG Reports:
     for each system on an annual basis. The contingency plans should be        • 4A-CI-00-08-022 Recommendation 2,
                                                                                                                             OPEN: Rolled-forward as Report
     immediately tested for the eight systems that were not subject to          • 4A-CI-00-09-031 Recommendation 9,
                                                                                                                             4A-CI-00-13-021Recommendation 14
     adequate testing in FY 2012.                                               • 4A-CI-00-10-019 Recommendation 30, and
                                                                                • 4A-CI-00-11-009 Recommendation 19
16   We recommend that the OCIO implement and document a centralized            Roll-Forward from OIG Report:                OPEN: Rolled-forward as Report
     (agency-wide) approach to contingency plan testing.                        • 4A-CI-00-11-009 Recommendation 21          4A-CI-00-13-021Recommendation 15
17   We recommend that the OPM Information Technology Security and
     Privacy Handbook be updated to explicitly require contractor-operated
     systems to be subject to an annual security controls test performed by a   Recommendation new in FY 2012                CLOSED: 2/27/2013
     government employee or an independent third party. The security
     controls tests should be documented using OPM’s standard templates.
18   We recommend that OPM continue its efforts to eliminate the                Roll-forward from OIG Reports:
     unnecessary use of SSNs in accordance with OMB Memorandum M-               •   4A-CI-00-08-022 Recommendation 12,
                                                                                                                             OPEN: Rolled-forward as Report
     07-16.                                                                     •   4A-CI-00-09-031 Recommendation 22,
                                                                                                                             4A-CI-00-13-021Recommendation 16
                                                                                •   4A-CI-00-10-019 Recommendation 39, and
                                                                                •   4A-CI-00-11-009 Recommendation 28
f   '   •   t


                                                               Appendix II 



                                    UNJTED STATES OFFICE OF PERSONNEL MANAGEMENT 

                                                                 Washington, DC 20415 


            Chief Infonnntlon
                 Officer




                                                                                                                       Jl'lv              {I
                 MEMORANDUM FOR:
                                                   •      J
                                                              ... • '1111 •   •   SYSTEMS AUDIT GROUP                                              I,.., ~ t)
                                                                                                                                      10       b      •

                 FROM: 	                        CHUCK SIMPSON
                                                ACTING, CHIEF INFORMATION OFFICER(J'J'
                                                                                                            ~~l
                 Subject : 	                    Response to the Federal Information Security Management Act Audit ­
                                                FY2013, Report NO. 4A-CI-00-13-021 



                Thank you for the opportunity to comment on the subject report. The results provided in the draft report 

                consist of a number of recommendations. The recommendations are valuable to our program 

                improvement efforts and most of them are generally consistent with our plan. We plan to continue 

                making improvements in our security risk management strategy and the OPM IT security program. 


                In reviewing the draft report, we noticed that recommendation #8 which covers specialized security
                training was reissued . Additional information was submitted since the draft report was issued showing a
                specialized training participation rate of94%. We asked for consideration in having recommendation #8
                removed from the final audit report.

                The CIO's responses to the FY-13 Draft FISMA Audit Report are documented below:

                Recommendation 1 !Rolled-Forward from 2010)
                We r«ommend that OPM implement tentralized information security governance
                structure where all information security practitioners, including designated security
                officers, report to the CISO. Adequate resources should be assigned to the OCIO to
                create this structure. Existing designated security offiters who report to their
                program offices should return to their program office duties. The new staff that
                reports to the CJSO should consist of experienced information security professionals.

                CIO Resoonse:
                A CIO initiated Memo directing the centralization of the security responsibilities of Designated Security
                Officers (DSO) in the Office of Chief Information Security Officer (CISO) was issued by the OPM
                Director on August, 2012 with an effective date of October 1, 2012. The CIO has already hired three
                Infonnation System Security Officers with professional IT security experience and certifications and
                recruitment of an additional one is in progress for a total of four. The initial set ofsystems has been
                transition to ISSOs for security management and we expect to have all OPM systems under CISO
                security management once funding for additional professional security staff becomes available.



                                   R ecrui t. Retain and Honor a World-Class Worlcforce to Serve the American People       -   .usajobs.gov
Reeommendation 2
We recommend that the OCIO develop a plan and timeline to enforce the new SDLC policy to all
of OPM's system development projects.

CIO Re~ponse : 

The OPM SDLC is being applied to OPM's major investment projects. In FY14, a plan with timelines 

will be developed to enforce the SDLC policy for applicable system development projects. 


Recommendation 3 (Rolled-Forward from 20/J)
We recommend that the OCIO continue to develop its Risk Executive Function to
meet all of the intended requirements outlined in NIST SP 800-39, section 2.3.2 Risk
Exeeutive (Function).

CIO Response :
We will continue to assess the Risk Executive Function per NIST Special Publication 800-39 and to
explore and make suggestions for implementing this function . The risk executive function will have
agency wide authority and responsibility for assessing risk across all OPM Program Offices and to
advise senior management on risk management strategies.

Recommendation 4
We recommend that the OCIO develop and implement a baseline configuration for -


CIO Response:

We are working to standardize operating systems and applications throughout the environment. Over the
past year, all Windows and Linux operating systems, as well as Microsoft SQL have been given
approved baseline images. We will continue to                        and develop and implement
configuration baselines for

 Resommendation 5
 We recommend that the OCIO conduct routine compliance audits
-          with the OPM baseline configuration once they bave been review'ed.
 approved.

CIO Response: 

We concur with this recommendation and will implement the recommendation on the approved baseline 

configuration. 


Recommendation 6 (Rolled-Forward from 2011) 

We recommend that the OCIO document "accepted" weaknesses identified in 

Vulnerability scans. 


CIO Response: 

We concur with this recommendation and will implement the recommendation in FY-14 . 

Recommendation 7
We recommend that the OCIO establish a centralized network security operations
center with the ability to monitor security events for all major OPM systems.

CIO Response :
A centralized monitoring center is established with first level alerting and monitoring for the servers, and
network appliances within the major OPM sites. Work has begun on incorporating application and
database monitoring and compliance. We will continue to evaluate and look at cost effective ways to
implement this recommendation.

Recommendation 8 <Rolled-Forward from 2010) 

We continue to recommend that the OCIO ensure that all employees with significant 

information security responsibility take meaningful and appropriate specialized 

security training on an annual basis. 


CIO Response: 

We have successfully implemented this recommendation and significant improvements were achieved 

this year with a completion rate ofover 94 percent. Additional information was submitted after the draft 

report was pubJished that reflects the most current data. 


Recommendation 9
We recommend that the OCIO and system owners develop formal corrective action
plans to immediately remediate all POA&M weaknesses that are over 120 days
overdue.

CIO Response:

The CIO dedicated resources to this task and has successfully closed a majority of POA&Ms that are
over 120 days old and will continue to work with program offices to reduce or close those that are
outstanding and to develop fonnal Corrective Action Plans. Most POA&Ms that are over 120 days have
dependencies such as funding that is not available or coordination issues with external entities who often
are not ready to implement the required changes. It is suggested that the word "immediate" be removed
from recommendation 9 since immediate resolution is not feasible.

Recommendation 10
We recommend that all POA&Ms list the specific resources required to address each
security weakness identified.

CIO Response: 

This recommendation has been largely implemented for program offices with open POA&Ms. We wilJ 

continue to work with program offices to ensure that the "resources required" for POA&Ms are 

identified and documented. 





                                                     3

.. 




       Recommendation 11
       We recommend that system owners submit a POA&M to the OCIO for every system on a
       quarterly basis.

       CIO Response:
       This recommendation has been implemented and program offices with open POA&Ms have been
       updating their POA&Ms in the Trusted Agent system on at least a quarterly basis. High system updates
       are perfonned monthly. The POA&M management process has been automated and we no longer
       require submission s, instead program offices update their POA&Ms in the Trusted Agent Systems under
       oversight and guidance from the CISO. Program offices that do not have open POA&Ms are not
       required to perform POA&M updates. Please let us know if you wish to have a discussion on the
       POA&M automation process.

       Recommendation 12CRolled-Fonvard from 2012)
       We recommend the OCIO configure the VPN servers to


       CIO Response: 

       All technological controls are in place and we believe there is a flaw in a vendor's design that will 

       require an out of band patch to repair. We have nanowed the problem to a fault within the UDP 

       connection to the client and we are working with the vendor, Cisco Systems to get this resolved. 


       Recommendation 13 <RoUed-Forward 2012) 

       We recommend that the OCIO meet the requirements ofOMB M-11-11 by upgradidg 

       its major information systems to require multi-factor authentication using PIV 

       credentials. 


       CIO Response:
       We have developed and are in the process of implementing plans for multi-factor PIV authentication for
       compliance with OMB M-11-11. A major segment ofthe users on our network infrastructure are using
       PIV authentication. In FY-14 we will continue to work with program offices to implement PIV
       authentication for major systems.

       Recommendation 14
       We recommend that the OCIO expand its continuous monitoring program to include quarterly
       submissions for High impact systems, more frequent controls testing for all systems, and further
       implementation of automated tools as outlined in the Information Security Continuous
       Monitoring Roadmap.

       CIO Resoonse; 

       We have made significant progress implementing Continuous Monitoring at OPM and will continue to 

       expand the program over a 2 year period into FY-15 subject to availability of funds. We plan to 

       implement this specific set of recommendations from the draft report. 

.. . 





         Recommendation 15 <Rolled forward from 2008) 

         We recommend that OPM ensure that an annual test ofsecurity controls has been completed for all 

         systems. 


         CIO Response: 

         We continue to make progress with security controls testing in FY-2013 and expect to have test plans 

         and results for all systems in FY-2014. Security controls testing will be a major part ofour continuous 

         monitoring program that is currently being implemented. 


         Recommendation 16 <Rolled-Forward from 2008) 

         We recommend that OPM's program offices test the contingency plans for each system on an 

         annual basis. The contingency plans should be immediately tested for the eight systems that were 

         not subjed to adequate testing in FY 2013. 


         CIO Response: 

         We will continue making progress working with program offices on contingency plan testing in FY-14. 

         Due to the current shortage of funding for all ISSOs, the CISO must still rely on decentralized DSOs for 

         support to complete the testing. This has caused delays in implementation and coordination. We ask that 

         the wording in this recommendation be changed from requesting Contingency Plans to be "immediately 

         tested" to tested as soon as possible. 


         Recommendation 17 (rolled forward from 2011) 

         We recommend that the OCIO implement and document a centralized (agencyMwide) approach to 

         contingency plan testing. 


         CIO Response: 

         We will continue efforts to centralize contingency plan testing in FY-14 with the goal of implementing 

         this recommendation. 


         Recommendation 18 (Rolled-Forward from 2008) 

         We recommend that OPM continue its efforts to eliminate the unnecessary use of SSNs in 

         accordance with OMB Memorandum M-07M16. 


         CIO Response: 

         Significant work was done to eliminate the unnecessary use of social security numbers (SSN) including 

         development of a consolidated Action Plan and eliminating them from USAJOBS and the PMF systems. 

         In FY-14, the Privacy Officer wilJ update the action plan and schedule a pilot project with Retirement 

         Services to review business processes to detennine how SSNs usage can be reduced. Note that this 

         recommendation requires funding for agency-wide implementation. 





                                                             s

                             Appendix III




Inspector General                                  2013
                                                  Annual FISMA
                                                     Report
Section Report




                 Office of Personnel Management
Section 1: Continuous Monitoring Management
1.1      Has the organization established an enterprise-wide continuous monitoring program that assesses the security state of information systems
         that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may
         have been identified by the OIG, does the program include the following attributes?
          Yes
                  Comments:      The OCIO developed a concept of operations document and a continuous monitoring program implementation “roadmap” that
                                 describes the stages and timeline for implementing a full continuous monitoring program at OPM. While the initial stages of
                                 implementation began in FY 2012, full implementation of the plan is not scheduled to be completed until FY 2015.
          1.1.1   Documented policies and procedures for continuous monitoring (NIST SP 800-53: CA-7).
                  Yes
          1.1.2   Documented strategy and plans for continuous monitoring (NIST SP 800-37 Rev 1, Appendix G).
                  Yes
          1.1.3   Ongoing assessments of security controls (system-specific, hybrid, and common) that have been performed based on the approved
                  continuous monitoring plans (NIST SP 800-53, NIST 800-53A).
                  No
                           Comments:       OPM policy requires all owners of OPM-operated systems to submit evidence of continuous monitoring activities at least
                                           semiannually, and owners of contractor-operated systems to submit evidence of security control testing annually. Between
                                           contractor and agency-operated information systems, only 34 out of 47 systems were subject to adequate security controls
                                           testing in FY 2013.
          1.1.4   Provides authorizing officials and other key system officials with security status reports covering updates to security plans and security
                  assessment reports, as well as a common and consistent POA&M program that is updated with the frequency defined in the strategy
                  and/or plans (NIST SP 800-53, 800-53A).
                  Yes
1.2      Please provide any additional information on the effectiveness of the organization’s Continuous Monitoring Management Program that was
         not noted in the questions above.
          No Current Entries
                  Comments:      It has been over six years since all OPM systems were subject to an adequate annual security controls test. OPM’s decentralized
                                 approach to IT security has traditionally placed responsibility on the various program offices to test the security controls of their
                                 systems. We are optimistic that the quality and consistency of security controls tests will improve with the full implementation of the
                                 OCIO’s centralized security structure and with the shift to semi-annual continuous monitoring submissions.

OIG Report - Annual 2013                                                                                                                                             Page 1 of 16
                                                                            For Official Use Only
Section 2: Configuration Management
          2.1.6    Documented proposed or actual changes to hardware and software configurations.
                   Yes
          2.1.7    Process for timely and secure installation of software patches.
                   Yes
          2.1.8    Software assessing (scanning) capabilities are fully implemented (NIST SP 800-53: RA-5, SI-2).
                   Yes
          2.1.9    Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner, as specified in organization
                   policy or standards. (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2)
                   Yes
          2.1.10   Patch management process is fully developed, as specified in organization policy or standards. (NIST SP 800-53: CM-3, SI-2).
                   Yes
2.2      Please provide any additional information on the effectiveness of the organization’s Configuration Management Program that was not noted in
         the questions above.
          No Current Entries

Section 3: Identity and Access Management
3.1      Has the organization established an identity and access management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines and which identifies users and network devices? Besides the improvement opportunities that have been identified
         by the OIG, does the program include the following attributes?
          Yes
          3.1.1    Documented policies and procedures for account and identity management (NIST SP 800-53: AC-1).
                   Yes
          3.1.2    Identifies all users, including Federal employees, contractors, and others who access organization systems (NIST SP 800-53, AC-2).
                   Yes
          3.1.3    Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                   Yes




OIG Report - Annual 2013                                                                                                                                   Page 3 of 16
                                                                            For Official Use Only
Section 3: Identity and Access Management
          3.1.4    If multi-factor authentication is in use, it is linked to the organization's PIV program where appropriate (NIST SP 800-53, IA-2).
                   No
                            Comments:       See note in 3.1.5.
          3.1.5    Organization has planned for implementation of PIV for logical access in accordance with government policies (HSPD 12, FIPS 201,
                   OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                   No
                            Comments:       In FY 2012, the OCIO began an initiative to require PIV authentication to access the agency’s network. As of the end of
                                            FY 2013, 30 percent of OPM workstations require PIV authentication for access to the OPM network. However, none of
                                            the agency’s 47 major applications require PIV authentication.
          3.1.6    Organization has adequately planned for implementation of PIV for physical access in accordance with government policies (HSPD 12,
                   FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                   Yes
          3.1.7    Ensures that the users are granted access based on needs and separation-of-duties principles.
                   Yes
          3.1.8    Identifies devices with IP addresses that are attached to the network and distinguishes these devices from users (For example: IP
                   phones, faxes, printers are examples of devices attached to the network that are distinguishable from desktops, laptops or servers that
                   have user accounts).
                   Yes
          3.1.9    Identifies all user and non-user accounts. (Refers to user accounts that are on a system. Data user accounts are created to pull generic
                   information from a database or a guest/anonymous account for generic login purposes. They are not associated with a single user or a
                   specific group of users.)
                   Yes
          3.1.10   Ensures that accounts are terminated or deactivated once access is no longer required.
                   Yes
          3.1.11   Identifies and controls use of shared accounts.
                   Yes




OIG Report - Annual 2013                                                                                                                                          Page 4 of 16
                                                                            For Official Use Only
Section 3: Identity and Access Management
3.2      Please provide any additional information on the effectiveness of the organization’s Identity and Access Management Program that was not
         noted in the questions above.
          No Current Entries

Section 4: Incident Response and Reporting
4.1      Has the organization established an incident response and reporting program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes?
          Yes
          4.1.1   Documented policies and procedures for detecting, responding to, and reporting incidents (NIST SP 800-53: IR-1).
                  Yes
          4.1.2   Comprehensive analysis, validation and documentation of incidents.
                  Yes
          4.1.3   When applicable, reports to US-CERT within established timeframes (NIST SP 800-53, 800-61, and OMB M-07-16, M-06-19).
                  Yes
          4.1.4   When applicable, reports to law enforcement within established timeframes (NIST SP 800-61).
                  Yes
          4.1.5   Responds to and resolves incidents in a timely manner, as specified in organization policy or standards, to minimize further damage
                  (NIST SP 800-53, 800-61, and OMB M-07-16, M-06-19).
                  Yes
          4.1.6   Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                  Yes
                           Comments:       OPM has incident response policies and procedures that govern all systems, including those that reside in a cloud.
                                           However, OPM's master system inventory does not document which systems reside in a cloud.




OIG Report - Annual 2013                                                                                                                                        Page 5 of 16
                                                                            For Official Use Only
Section 4: Incident Response and Reporting
          4.1.7   Is capable of correlating incidents.
                  No
                            Comments:       OPM owns a software product with the technical ability to compare and correlate security incidents over time. However,
                                            the correlation features of these tools are not being fully utilized at this time. This tool receives event data from approximately
                                            80 percent of all major OPM systems. Furthermore, OPM does not have a consistent and unified process to monitor and
                                            analyze all security incidents. Some incidents cannot be fully investigated due to inconsistent logging practices across
                                            systems, and inefficiencies created by program offices running separate monitoring tools on their systems.
          4.1.8   Has sufficient incident monitoring and detection coverage in accordance with government policies (NIST SP 800-53, 800-61; OMB
                  M-07-16, M-06-19).
                  Yes
4.2      Please provide any additional information on the effectiveness of the organization’s Incident Management Program that was not noted in the
         questions above.
          No Current Entries

Section 5: Risk Management
5.1      Has the organization established a risk management program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          No
                  Comments:       In FY 2011, the OCIO organized a Risk Executive Function comprised of several IT security professionals. However, as of the end
                                  of FY 2012, the 12 primary elements of the Risk Executive Function as described in NIST SP 800-39 were not all fully implemented.
                                  Key elements still missing from OPM’s approach to managing risk at an agency-wide level include: conducting a risk assessment,
                                  maintaining a risk registry, and communicating the agency-wide risks down to the system owners. Although the OCIO improved in
                                  assessing risk at the individual system level (see Security Assessment and Authorization section II, above), the OCIO was not fully
                                  managing risk at an organization-wide level. As of FY 2013, no further changes have been implemented to address organization-wide
                                  risk.
          5.1.1   Documented policies and procedures for risk management, including descriptions of the roles and responsibilities of participants in this
                  process.
                  Yes


OIG Report - Annual 2013                                                                                                                                                 Page 6 of 16
                                                                              For Official Use Only
Section 5: Risk Management
          5.1.2    Addresses risk from an organization perspective with the development of a comprehensive governance structure and organization-wide
                   risk management strategy as described in NIST SP 800-37, Rev.1.
                   No
                             Comments:       See comment in 5.1.
          5.1.3    Addresses risk from a mission and business process perspective and is guided by the risk decisions from an organizational
                   perspective, as described in NIST SP 800-37, Rev. 1.
                   Yes
          5.1.4    Addresses risk from an information system perspective and is guided by the risk decisions from an organizational perspective and the
                   mission and business perspective, as described in NIST SP 800-37, Rev. 1.
                   Yes
          5.1.5    Has an up-to-date system inventory.
                   Yes
          5.1.6    Categorizes information systems in accordance with government policies.
                   Yes
          5.1.7    Selects an appropriately tailored set of baseline security controls.
                   Yes
          5.1.8    Implements the tailored set of baseline security controls and describes how the controls are employed within the information system
                   and its environment of operation.
                   Yes
          5.1.9    Assesses the security controls using appropriate assessment procedures to determine the extent to which the controls are
                   implemented correctly, operating as intended, and producing the desired outcome with respect to meeting the security requirements for
                   the system.
                   No
                             Comments:       The information security controls were adequately assessed for only 34 of OPM's 47 major systems in FY 2013.
          5.1.10   Authorizes information system operation based on a determination of the risk to organizational operations and assets, individuals,
                   other organizations, and the Nation resulting from the operation of the information system and the decision that this risk is acceptable.
                   Yes


OIG Report - Annual 2013                                                                                                                                       Page 7 of 16
                                                                             For Official Use Only
Section 5: Risk Management
          5.1.11   Ensures information security controls are monitored on an ongoing basis including assessing control effectiveness, documenting
                   changes to the system or its environment of operation, conducting security impact analyses of the associated changes, and reporting
                   the security state of the system to designated organizational officials.
                   No
                             Comments:       OPM's continuous monitoring program is not scheduled for full implementation until FY 2015.
          5.1.12   Information-system-specific risks (tactical), mission/business-specific risks, and organizational-level (strategic) risks are
                   communicated to appropriate levels of the organization.
                   Yes
          5.1.13   Senior officials are briefed on threat activity on a regular basis by appropriate personnel (e.g., CISO).
                   Yes
          5.1.14   Prescribes the active involvement of information system owners and common control providers, chief information officers, senior
                   information security officers, authorizing officials, and other roles as applicable in the ongoing management of information
                   system-related security risks.
                   Yes
          5.1.15   Security authorization package contains system security plan, security assessment report, and POA&M in accordance with
                   government policies. (NIST SP 800-18, 800-37).
                   Yes
          5.1.16   Security authorization package contains accreditation boundaries, defined in accordance with government policies, for organization
                   information systems.
                   Yes
5.2      Please provide any additional information on the effectiveness of the organization’s Risk Management Program that was not noted in the
         questions above.
          No Current Entries

Section 6: Security Training




OIG Report - Annual 2013                                                                                                                                 Page 8 of 16
                                                                             For Official Use Only
Section 6: Security Training
6.1      Has the organization established a security training program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          Yes
          6.1.1   Documented policies and procedures for security awareness training (NIST SP 800-53: AT-1).
                  Yes
          6.1.2   Documented policies and procedures for specialized training for users with significant information security responsibilities.
                  Yes
          6.1.3   Security training content based on the organization and roles, as specified in organization policy or standards.
                  Yes
          6.1.4   Identification and tracking of the status of security awareness training for all personnel (including employees, contractors, and other
                  organization users) with access privileges that require security awareness training.
                  Yes
          6.1.5   Identification and tracking of the status of specialized training for all personnel (including employees, contractors, and other
                  organization users) with significant information security responsibilities that require specialized training.
                  Yes
          6.1.6   Training material for security awareness training contains appropriate content for the organization (NIST SP 800-50, 800-53).
                  Yes
6.2      Please provide any additional information on the effectiveness of the organization’s Security Training Program that was not noted in the
         questions above.
          No Current Entries

Section 7: Plan Of Action & Milestones (POA&M)
7.1      Has the organization established a POA&M program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines and tracks and monitors known information security weaknesses? Besides the improvement opportunities that may have been
         identified by the OIG, does the program include the following attributes?
          Yes



OIG Report - Annual 2013                                                                                                                                    Page 9 of 16
                                                                           For Official Use Only
Section 7: Plan Of Action & Milestones (POA&M)
          7.1.1   Documented policies and procedures for managing IT security weaknesses discovered during security control assessments and that
                  require remediation.
                  Yes
          7.1.2   Tracks, prioritizes and remediates weaknesses.
                  Yes
          7.1.3   Ensures remediation plans are effective for correcting weaknesses.
                  No
                           Comments:      See comments in 7.1.4.
          7.1.4   Establishes and adheres to milestone remediation dates.
                  No
                           Comments:      Our review indicated that many system owners are not meeting the self-imposed remediation deadlines listed on the
                                          POA&Ms. Of OPM’s 47 major systems, 22 have POA&M items that are greater than 120 days overdue. We believe that
                                          this indicates that POA&M remediation plans are not effective for correcting weaknesses.
          7.1.5   Ensures resources and ownership are provided for correcting weaknesses.
                  No
                           Comments:      We interviewed the system owners of five OPM systems with overdue POA&M items. Each owner stated that although
                                          they have identified the resources required to address the POA&M items, these resources are not currently available.
          7.1.6   POA&Ms include security weaknesses discovered during assessments of security controls and that require remediation (do not need
                  to include security weakness due to a risk-based decision to not implement a security control) (OMB M-04-25).
                  Yes
          7.1.7   Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25).
                  No
                           Comments:      We noted that the owners of 10 out of OPM's 47 systems have not identified the resources needed to address POA&M
                                          weaknesses, as required by OPM’s POA&M policy.




OIG Report - Annual 2013                                                                                                                                     Page 10 of 16
                                                                            For Official Use Only
Section 7: Plan Of Action & Milestones (POA&M)
          7.1.8   Program officials report progress on remediation to CIO on a regular basis, at least quarterly, and the CIO centrally tracks, maintains,
                  and independently reviews/validates the POA&M activities at least quarterly (NIST SP 800-53, Rev. 3, Control CA-5; OMB
                  M-04-25).
                  Yes
7.2      Please provide any additional information on the effectiveness of the organization’s POA&M Program that was not noted in the questions
         above.
          No Current Entries

Section 8: Remote Access Management
8.1      Has the organization established a remote access program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          Yes
          8.1.1   Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote access (NIST SP 800-53: AC-1,
                  AC-17).
                  Yes
          8.1.2   Protects against unauthorized connections or subversion of authorized connections.
                  Yes
          8.1.3   Users are uniquely identified and authenticated for all access (NIST SP 800-46, Section 4.2, Section 5.1).
                  Yes
          8.1.4   Telecommuting policy is fully developed (NIST SP 800-46, Section 5.1).
                  Yes
          8.1.5   If applicable, multi-factor authentication is required for remote access (NIST SP 800-46, Section 2.2, Section 3.3).
                  Yes
          8.1.6   Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic authentication, including strength
                  mechanisms.
                  Yes



OIG Report - Annual 2013                                                                                                                                     Page 11 of 16
                                                                           For Official Use Only
Section 9: Contingency Planning
          9.1.1   Documented business continuity and disaster recovery policy providing the authority and guidance necessary to reduce the impact of a
                  disruptive event or disaster (NIST SP 800-53: CP-1).
                  Yes
          9.1.2   The organization has incorporated the results of its system’s Business Impact Analysis (BIA) into the analysis and strategy
                  development efforts for the organization’s Continuity of Operations Plan (COOP), Business Continuity Plan (BCP), and Disaster
                  Recovery Plan (DRP) (NIST SP 800-34).
                  Yes
          9.1.3   Development and documentation of division, component, and IT infrastructure recovery strategies, plans and procedures (NIST SP
                  800-34).
                  Yes
          9.1.4   Testing of system specific contingency plans.
                  No
                           Comments:       We received evidence that contingency plans were tested for only 40 of 47 systems in FY 2013. Of the contingency plan
                                           tests we did receive, we continue to notice inconsistency in the quality of the documentation produced for various OPM
                                           systems.
          9.1.5   The documented BCP and DRP are in place and can be implemented when necessary (FCD1, NIST SP 800-34).
                  Yes
          9.1.6   Development of test, training, and exercise (TT&E) programs (FCD1, NIST SP 800-34, NIST SP 800-53).
                  Yes
          9.1.7   Testing or exercising of BCP and DRP to determine effectiveness and to maintain current plans.
                  No
                           Comments:       Many OPM systems reside on one of the agency’s general support systems. However, two of these general support
                                           systems were not adequately tested in FY 2013. In the FY 2011 FISMA audit report we recommended that the OCIO
                                           implement a centralized (agency-wide) approach to contingency plan testing. We were informed that a single synchronized
                                           functional test is not feasible due to logistical and resource limitations. However, the intent of the recommendation is to
                                           ensure that all elements of the general support systems are subject to a full functional disaster recovery test each year. This
                                           recommendation can be remediated if each general support system is subject to a full functional test each year, even if it must
                                           be broken into a series of smaller tests.


OIG Report - Annual 2013                                                                                                                                            Page 13 of 16
                                                                            For Official Use Only
Section 9: Contingency Planning
          9.1.8    After-action report that addresses issues identified during contingency/disaster recovery exercises (FCD1, NIST SP 800-34).
                   No
                            Comments:      As mentioned in 9.1.4, seven systems were not subject to contingency plan testing in FY 2013, and therefore no after action
                                           report was developed.
          9.1.9    Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.10   Alternate processing sites are not subject to the same risks as primary sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.11   Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.12   Contingency planning that considers supply chain threats.
                   Yes
9.2      Please provide any additional information on the effectiveness of the organization’s Contingency Planning Program that was not noted in the
         questions above.
          No Current Entries

Section 10: Contractor Systems
10.1     Has the organization established a program to oversee systems operated on its behalf by contractors or other entities, including organization
         systems and services residing in the cloud external to the organization? Besides the improvement opportunities that may have been identified
         by the OIG, does the program includes the following attributes?
          Yes
          10.1.1   Documented policies and procedures for information security oversight of systems operated on the organization’s behalf by
                   contractors or other entities, including organization systems and services residing in a public cloud.
                   Yes




OIG Report - Annual 2013                                                                                                                                          Page 14 of 16
                                                                            For Official Use Only
Section 10: Contractor Systems
          10.1.2   The organization obtains sufficient assurance that security controls of such systems and services are effectively implemented and
                   comply with Federal and organization guidelines (NIST SP 800-53: CA-2).
                   No
                            Comments:       OPM policy states that system owners must ensure that an annual security controls test is performed for contractor-operated
                                            systems by a government employee or an independent third party at the site where contracted information technology
                                            services are rendered. However, only 14 of 21 contractor operated systems were adequately tested in FY 2013.
          10.1.3   A complete inventory of systems operated on the organization’s behalf by contractors or other entities, including organization systems
                   and services residing in a public cloud.
                   Yes
          10.1.4   The inventory identifies interfaces between these systems and organization-operated systems (NIST SP 800-53: PM-5).
                   Yes
          10.1.5   The organization requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for interfaces
                   between these systems and those that it owns and operates.
                   Yes
          10.1.6   The inventory of contractor systems is updated at least annually.
                   Yes
          10.1.7   Systems that are owned or operated by contractors or entities, including organization systems and services residing in a public cloud,
                   are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines.
                   Yes
10.2     Please provide any additional information on the effectiveness of the organization’s Contractor Systems Program that was not noted in the
         questions above.
          No Current Entries

Section 11: Security Capital Planning
11.1     Has the organization established a security capital planning and investment program for information security? Besides the improvement
         opportunities that may have been identified by the OIG, does the program include the following attributes?
          Yes



OIG Report - Annual 2013                                                                                                                                           Page 15 of 16
                                                                             For Official Use Only
Section 11: Security Capital Planning
          11.1.1   Documented policies and procedures to address information security in the capital planning and investment control (CPIC) process.
                   Yes
          11.1.2   Includes information security requirements as part of the capital planning and investment process.
                   Yes
          11.1.3   Establishes a discrete line item for information security in organizational programming and documentation (NIST SP 800-53: SA-2).
                   Yes
          11.1.4   Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required (NIST SP 800-53: PM-3).
                   Yes
          11.1.5   Ensures that information security resources are available for expenditure as planned.
                   Yes
11.2     Please provide any additional information on the effectiveness of the organization’s Security Capital Planning Program that was not noted in
         the questions above.
          No Current Entries




OIG Report - Annual 2013                                                                                                                                Page 16 of 16
                                                                           For Official Use Only
